No, 20-1603
¥In the Supreme Court of the United States
SUSAN BENNETT, Petitioner,
vu.

AMERICAN FEDERATION OF STATE, COUNTY, AND MUNICIPAL
EMPLOYEES, COUNCIL 31, AFL-CIO, ET AL., Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
State Respondents Kwame Raoul, Andrea Waintroob, Judy Biggert, Gilbert O’Brien
Jr., Lynne Sered, and Lara Shayne contains 458 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Ns
/ i

ud 2 \ Ue
ne Elinor Notz
00 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jane.notz@ilag.gov
Counsel for State Respondents

Executed on September 23, 2021. \

is

    

  
